   June 16, 2004




Defense Infrastructure
Analysis of the Defense Finance and
Accounting Service Military Retired
and Annuitant Pay Sourcing Options
(D-2004-088)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies
  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

CGA                   Continuing Government Activity
CNA                   Center for Naval Analyses
DFAS                  Defense Finance and Accounting Service
IG DoD                Inspector General of the Department of Defense
OMB                   Office of Management and Budget
OPM                   Office of Personnel Management
           Office of the Inspector General of the Department of Defense
Report No. D-2004-088                                                      June 16, 2004
 (Project No. D2004CB-0066)

            Analysis of the Defense Finance and Accounting Service
             Military Retired and Annuitant Pay Sourcing Options

                                  Executive Summary

Who Should Read This Report and Why? Defense officials responsible for the
management of military retired and annuitant pay functions should read this report. The
report addresses the analysis of sourcing options for the Defense Finance and Accounting
Service military retired and annuitant pay functions.

Background. We performed this audit in response to a request from Congressman Dennis J.
Kucinich. The Inspector General of the Department of Defense (IG DoD) issued Audit
Report No. D-2003-056, “Public/Private Competition for the Defense Finance and
Accounting Service (DFAS) Military Retired and Annuitant Pay Functions,” on March 21,
2003, that recommended that the Director, DFAS, determine a specific course of action for
the military retired and annuitant pay functions contract, to include a determination of why a
recompetition should not be held. The director concurred and stated that all available options
would be evaluated to decide a future course of action that would be cost-effective and
would provide the best service possible for retired military and annuitant pay customers.

DFAS tasked the Center for Naval Analyses (CNA) on June 9, 2003, to provide an analysis
of options DFAS could pursue for the military retired and annuitant pay functions. In
September 2003 CNA issued its report and concluded that the “preponderance of evidence,”
including an estimated $42 million cost savings, favored retaining the existing contract as
long as costs continue to be reasonable and performance satisfactory. CNA analyzed four
options: retain the existing contract, return the pay functions to in-house performance
without another public/private competition, conduct a new public/private competition, and
conduct a private/private competition. DFAS awarded the contract to the current contractor
in September 2001, and the performance period was a 4-month transition-in period, 10 1-year
options, and a 6-month transition-out period. Therefore, CNA used the actual contract cost
of the first performance year and revised contract costs for the second and third performance
years when analyzing the estimated costs of each of the four options.

After reviewing the CNA report, Congressman Dennis J. Kucinich requested that the IG DoD
review the $42 million cost savings estimate associated with retaining the existing contract
until the end of its 10-year performance period, the impact of this cost savings on other
options, explain the difference between the summary performance data and the random
sample performance data used by CNA to evaluate contractor performance, and evaluate the
appropriateness of CNA’s presentation of the data.

Results. We disagree that the $42 million CNA estimated was a fair representation of the
cost savings of Option 1, retain the existing contract, compared with Option 2, return to
in-house performance, because of the methodology used.
          •   CNA applied a partial cost reduction to Option 2 and a full cost reduction to
              Option 1 for the systems work that did not materialize as anticipated in the
              solicitation,

          •   CNA did not include a reduction of contract administration costs to Option 2.

Given that the performance of the contractor could not be evaluated on all contractual
performance requirements, we also disagree with the CNA report that the overall
performance of the contractor could be evaluated. Our audit results on the Option 1 and
Option 2 are shown on the following table.


                                September 2003 CNA Study*                            IG DoD Audit Results

      Description                 Advantage                    Disadvantage

      Option 1: Retain the        $42 million less expensive   Does not return       Estimated cost:
      existing contract until     than the MEO [Option 2]      the functions to      $286.53 million to
      the end of the 10-year      and should provide a         in-house              $291.96 million.
      performance period.         continuity of operations     performance.          Difference due to
      Estimated cost:             and continued satisfactory                         contract administration.
      $286.2 million.             customer service.
                                                                                     The “Advantage” should
                                                                                     show $11.2 million to
                                                                                     $41.5 million less
                                                                                     expensive than the
                                                                                     MEO [Option 2].

      Option 2: Return to         Corrects the error made      Would discourage      Estimated cost:
      in-house performance        and return the functions     private sector        $303.14 million to
      without a new               to in-house performance.     participation in      $328.07 million.
      public/private                                           future DFAS           Difference due to the
      competition.                                             competitions.         reduction of systems
      Estimated cost:                                          Requires a            work.
      $328.0 million.                                          deviation from
                                                               OMB and waivers
                                                               from OPM to rehire
                                                               employees who left
                                                               Government service.
      *
       We did not review Option 3, conduct a new public/private competition, or Option 4, conduct a
      private/private competition, because the $42 million cost savings CNA estimated did not affect
      Option 3 and Option 4. We also did not review the application of the Service Contract Act; or the out-
      of-pocket costs to the taxpayer because our scope was limited to the specific matters outlined in
      Congressman Kucinich’s request.


       Presentation of Contractor Performance Data. CNA did not use equivalent scales
when graphically presenting similar performance data. To illustrate the percentage of new
accounts established within 30 days, CNA used a line graph with a scale of 93 to 100 to
show prior Government performance and a bar graph with a scale of 0 to 100 to show
contractor performance. Contractor performance should be shown on graphs of similar type
and scale to those used to show prior Government performance.




                                                       ii
        Contractor Performance Data. DFAS could only evaluate the contractor on 4 of
the 10 contractual performance requirements; therefore, because not all contract performance
data were available, we were unable to come to a conclusion on the performance of the
contractor.

         Customer Satisfaction Surveys. CNA used data that DFAS provided to show that
customers were as satisfied with contractor performance as they were with Government
performance. However, the data that DFAS provided were not based on documented
statistically representative sample designs, and therefore, should not be used to compare
performance.

Management Action. During the course of our audit, DFAS took management actions to
address the methodology for the selection of samples for the customer satisfaction surveys.
Specifically, DFAS was developing procedures to ensure that sample selections for future
customer surveys for the military retired and annuitant pay functions are statistically
representative of the customer base.

Management Comments. The Acting Director, DFAS, concurred with the
recommendations to use the most current contractor performance data and relevant economic
cost data to make the decision to retain the existing contract at each option year and issue
standard operating procedures to ensure that the samples selected for future military retiree
and annuitant customer satisfaction surveys are based on documented statistically
representative sample designs. Therefore, no further comments are required. See the
Finding section of the report for a discussion of management comments and the Management
Comments section of the report for the complete text of the comments.




                                             iii
Table of Contents

Executive Summary                              i

Background                                    1

Objective                                     3

Finding
     Analysis of DFAS Sourcing Options        4

Appendixes
     A. Scope and Methodology                 17
         Prior Coverage                       18
     B. Congressional Request                 19
     C. Report Distribution                   20

Management Comments
     Defense Finance and Accounting Service   23
Background
           Office of Management and Budget Circular No. A-76 Guidance. The Office
           of Management and Budget (OMB) Circular No. A-76, “Performance of
           Commercial Activities,” August 4, 1983 (Revised), and OMB Circular No. A-76
           Revised Supplemental Handbook, March 1996 (Revised), established Federal
           policy regarding the performance of recurring commercial activities. The
           guidance sets forth the principles and procedures for implementing OMB Circular
           No. A-76, including the instructions for calculating the financial advantage to the
           Government of acquiring a service through in-house, contract, or inter-service
           support agreement resources. This guidance was in effect for the public/private
           competition of the Defense Finance and Accounting Service (DFAS) military
           retired and annuitant pay functions, which was announced in December 1997. On
           May 29, 2003, OMB issued OMB Circular No. A-76, “Performance of
           Commercial Activities,” that supercedes the previous versions. Any new
           public/private competition will be subject to the May 29, 2003, version of OMB
           Circular No. A-76.

           Public/Private Competition for the Military Retired and Annuitant Pay
           Functions. On September 11, 2000, DFAS issued a solicitation requesting
           proposals for performance of the military retired and annuitant pay functions for a
           10-year period. One contractor, Affiliated Computer Services, Government
           Services, Inc., submitted a proposal to the solicitation. DFAS awarded the
           contract to Affiliated Computer Services, Government Services, Inc., (the
           contractor) in September 2001. The adjusted total cost of contract performance
           was $364.7 million.1 The contract was awarded to the contractor based on a
           savings of $1.9 million. The performance period of the contract was a 4-month
           transition-in period, 10 1-year options, and a 6-month transition-out period.

           Identification of In-house Cost Estimate Error in IG DoD Report. On
           March 21, 2003, the Inspector General of the Department of Defense (IG DoD)
           issued Audit Report No. D-2003-056, “Public/Private Competition for the
           Defense Finance and Accounting Service Military Retired and Annuitant Pay
           Functions.” The report identified an error in the in-house cost estimate for the
           military retired and annuitant pay functions. If the error had been identified prior
           to the award, the in-house cost estimate from the Government would have been
           reduced by an estimated $31.8 million.

           IG DoD Recommendation and DFAS Response. One of the recommendations
           in the IG DoD report was for the Director, DFAS, to determine a specific course
           of action for the military retired and annuitant pay functions contract, to include a
           determination of why a recompetition should not be held. The Director concurred
           and on April 22, 2003, stated that he “will consider and evaluate all available
           options, and will conduct an independent analysis of the options that will consider
           legal, business, and operational factors.” In May 2003, DFAS requested that the

1
    The adjusted total cost of contract performance is the amount compared to the total cost of agency
    performance to identify the low cost provider in a public/private competition. The adjusted total cost of
    contract performance includes the contract price, contract administration, one-time conversion costs,
    federal income tax adjustment, and the conversion differential.



                                                        1
           Office of the Deputy Under Secretary of Defense (Installations and Environment)
           assist them in obtaining a contractor to conduct the independent analysis.

           Center for Naval Analyses Tasking. On June 9, 2003, the Office of the Deputy
           Under Secretary of Defense (Installations and Environment) tasked the Center for
           Naval Analyses (CNA) to evaluate the options DFAS could pursue for the
           military retired and annuitant pay functions. The CNA Corporation operates
           CNA, a federally funded research and development center. According to their
           Web site, CNA has provided “full-service” research and analysis since 1942 that
           has helped the Navy and Marine Corps become more effective and efficient.
           CNA performed work in the areas of national defense, transportation, education,
           health care, domestic safety, and the environment. CNA has worked in the area
           of public/private competition for several years, including identifying ways to run
           the public/private competitions more efficiently and suggesting incentives to
           increase cooperation with the public/private competition process.

           CNA Report. CNA issued its report, “Analysis of DFAS Military Retired and
           Annuitant Pay Sourcing Options,” September 2003, in response to the DFAS
           tasking. CNA analyzed four different options available to DFAS.

                    •   Option 1, retain the existing contract with Affiliated Computer
                        Services, Government Services, Inc., until the end of its 10-year
                        performance period.

                    •   Option 2, terminate the existing contract and return the retired and
                        annuitant pay functions to in-house performance by the most efficient
                        organization (MEO)2 without another public/private competition.

                    •   Option 3, conduct a new public/private competition.

                    •   Option 4, conduct a private/private competition.

           The contractor was in the second performance year when CNA conducted the
           study, therefore, CNA used the actual contract cost of the first performance year
           and revised contract costs for the second and third performance years when
           analyzing the estimated costs of each of the four options. CNA concluded that,
           while no option was ideal, the “preponderance of evidence,” including an
           estimated $42 million cost savings, favored retaining the existing contract as long
           as costs continue to be reasonable and performance satisfactory.

           Congressional Request. On November 20, 2003, after reviewing the report
           issued by CNA, Congressman Dennis J. Kucinich requested that the IG DoD
           evaluate two aspects of the analysis.

                    •   Review the $42 million cost savings estimate associated with retaining
                        the existing contract until the end of its 10-year performance period.



2
    The MEO is the staffing plan the Government developed to represent the most efficient and cost-effective
    organization to perform the functions competed in a public/private competition.



                                                      2
            •   Explain the difference between the summary performance data and the
                random sample performance data used by CNA to evaluate contractor
                performance and evaluate the appropriateness of CNA’s presentation
                of the data.


Objective
    Our overall audit objective was to review the analysis of the DFAS options for the
    military retired and annuitant pay functions conducted by CNA. Specifically, we
    reviewed the $42 million cost savings associated with the contractor continuing
    performance and reviewed the basis and analysis of contractor performance data.
    See Appendix A for a discussion of the scope and methodology. See Appendix B
    for the congressional request.




                                        3
                    Analysis of DFAS Sourcing Options
                    We disagree with the methodology CNA used to estimate the $42 million
                    cost savings of Option 1, retain the existing contract, compared with
                    Option 2, return to in-house performance. For the reduction in systems
                    work, CNA applied a partial cost reduction to Option 2 and a full cost
                    reduction to Option 1. Further, CNA did not include a reduction of
                    contract administration costs to Option 2. As a result, we believe that
                    showing the estimated cost savings as a range of $11.2 million to
                    $41.5 million is a fairer presentation.

                    We also disagree that the overall performance of the contractor could be
                    evaluated. DFAS could only evaluate the contractor on 4 of the
                    10 contractual performance requirements and customer satisfaction data
                    that DFAS provided were not based on documented statistically
                    representative sample designs. Given that all contractual performance
                    requirements can not be evaluated and the customer satisfaction data
                    should not have been used to compare performance, we were unable to
                    come to a conclusion on the performance of the contractor.


Options Provided to DFAS
           CNA identified four available options in their report to DFAS for the military
           retired and annuitant pay functions. For each option, CNA stated they evaluated
           the following factors:

                    •    cost of performance,

                    •    continued quality of service to customers,

                    •    impact on the affected workforce,

                    •    consistency with A-76 policy and federal procurement laws and
                         regulations, and

                    •    impact on future cost competitions and competitive sourcing.

           CNA stated that each option had many significant benefits, but each option also
           had at least one major disadvantage. In addition to the analyses of the four
           options available to DFAS, CNA conducted an analysis of the application of the
           Service Contract Act3 and out-of-pocket costs to the taxpayer. We did not review
           Option 3, conduct a new public/private competition; Option 4, conduct a
           private/private competition; the application of the Service Contract Act; or the
           out-of-pocket costs to the taxpayer because our scope was limited to the specific
3
    The Service Contract Act was established to ensure that Government contractors fairly compensate their
    service workers. In order to provide a level playing field between public and private offers, the in-house
    cost estimate does not include inflation for personnel costs that are subject to an economic price
    adjustment beyond the end of the first performance period.



                                                        4
      matters outlined in Congressman Kucinich’s request. The CNA review and the
      IG DoD audit results of Option 1 and Option 2 are shown in Table 1.


       Table 1. Summary of CNA’s Review of Option 1 and Option 2 and IG DoD Audit Results

                            September 2003 CNA Study*                           IG DoD Audit Results
  Description                Advantage                   Disadvantage
  Option 1: Retain the      $42 million less expensive   Does not return       Estimated cost:
  existing contract until   than the MEO [Option 2]      the functions to      $286.53 million to
  the end of the 10-year    and should provide a         in-house              $291.96 million.
  performance period.       continuity of operations     performance.          Difference due to
  Estimated cost:           and continued satisfactory                         contract administration.
  $286.2 million.           customer service.
                                                                               The “Advantage” should
                                                                               show $11.2 million to
                                                                               $41.5 million less
                                                                               expensive than the
                                                                               MEO [Option 2].
  Option 2: Return to       Corrects the error made      Would discourage      Estimated cost:
  in-house performance      and return the functions     private sector        $303.14 million to.
  without a new             to in-house performance.     participation in      $328.07 million.
  public/private                                         future DFAS           Difference due to the
  competition.                                           competitions.         reduction of systems
  Estimated cost:                                        Requires a            work.
  $328.0 million.                                        deviation from
                                                         OMB and waivers
                                                         from OPM to rehire
                                                         employees who left
                                                         Government service.
  *
   We did not review Option 3, conduct a new public/private competition, or Option 4, conduct a
  private/private competition, because the $42 million cost savings CNA estimated did not affect Option 3
  and Option 4. We also did not review the application of the Service Contract Act; or the out-of-pocket
  costs to the taxpayer because our scope was limited to the specific matters outlined in Congressman
  Kucinich’s request.




DFAS Decision to Continue Contractor Performance
      Prior to the CNA study, DFAS conducted its own analysis of the available
      military retired and annuitant pay options. DFAS concluded they should continue
      with the existing contract because it was a low-risk option, provided continued
      service delivery, and provided time to evaluate available options and make a fully
      informed decision for the future of the military retired and annuitant pay
      functions. DFAS officials stated that, in August 2002, they provided a briefing of
      their analysis to the Under Secretary of Defense (Comptroller)/Chief Financial
      Officer and subsequently implemented that option. In response to IG DoD Report
      No. D-2003-056, the Director, DFAS, stated that he would conduct an
      independent analysis of the options, including all legal, business, and operational
      factors, and engaged CNA in June 2003 to conduct the analysis.


                                                 5
           CNA conducted their analysis between June 2003 and September 2003 and
           determined that no option was ideal and that none of the options available to
           DFAS could really reverse the error identified by the IG DoD. CNA
           recommended, based on a “preponderance of evidence,” that DFAS retain the
           existing contract as long as costs continued to be reasonable and performance was
           satisfactory. CNA stated that the way the contractor proposal and the MEO offer
           were structured, the existing contract becomes less expensive than the MEO each
           year into the 10-year performance period. DFAS decided to retain the existing
           contract and will evaluate it each year to ensure it continues to provide best value
           and acceptable performance.


Methodology for Estimating Cost Savings
           We disagree with the CNA methodology for estimating the cost savings
           associated with retaining the existing contract. CNA applied only a partial
           reduction in systems work to the Government’s offer and did not include contract
           administration costs when estimating the cost savings of Option 1, retain the
           existing contract, compared with Option 2, return to in-house performance. We
           believe showing the estimated cost savings associated with retaining the existing
           contract as a range is a fairer presentation.

           Cost Savings of Option 1 Compared With Option 2. CNA estimated that
           Option 1, retain the existing contract, was $42 million less expensive than
           Option 2, return to in-house performance. However, when we wholly reduced
           systems work and included contract administration costs, we estimated the cost of
           Option 1 ranged from $11.2 million to $41.5 million less than the cost of
           Option 2.

                   Systems Work Requirements. DFAS estimated in the solicitation that
           the service provider would be required to perform 120,000 hours of
           Government-directed automated information system changes (systems work) each
           year. The contractor proposal included time and materials provisions for the
           estimated systems work. By comparison, the MEO included the systems work in
           two different portions of the in-house cost estimate. Specifically, systems work
           was divided between the MEO Systems Functional Branch and the Technical
           Services Organization4. The cost of the systems work performed by the Technical
           Services Organization was included on the in-house cost estimate as additional
           costs. The systems work performed by the MEO Systems Functional Branch was
           allocated to 43 personnel positions and the cost of those positions was included
           on the in-house cost estimate as fixed personnel costs.

                   During the contractor’s first year of performance, which was completed in
           January 2003, the extent of systems work did not materialize as estimated in the
           solicitation and the contractor incurred only 23.8 percent of its budget for systems
           work related time and materials. CNA stated that DFAS officials realized the


4
    The Technical Services Organization is a DFAS organization that has a service level agreement with
    DFAS-Cleveland and charges an hourly rate for its services.



                                                      6
           systems work would probably continue to be only 23.8 percent of the
           120,000 estimated hours, thus negating 76.2 percent of the original requirement.

                          Adjustment to Contractor Costs for Systems Work. CNA
           revised the cost of the contractor proposal to reflect the 76.2-percent reduction in
           systems work. CNA reduced the time and materials portion of the contractor
           proposal by 76.2 percent for each of the remaining performance years of the
           10-year performance period. For those 7 performance years, the revised cost of
           the contractor proposal was $190.5 million, a reduction of 18.31 percent of the
           original contractor proposal. Although we agree with this cost calculation, we
           don’t agree with the methodology CNA used to adjust the MEO costs for the
           reduction in systems work.

                           Adjustment to MEO Costs for Systems Work. The MEO
           divided costs for the systems work between the MEO Systems Functional Branch
           and the Technical Services Organization. However, CNA applied the
           76.2 percent reduction only to the systems work performed by the Technical
           Services Organization. This reduced the MEO offer to $222.9 million for the
           remaining performance years, a reduction of 6.15 percent of the original MEO
           offer. CNA stated that they did not reduce the cost of the MEO Systems
           Functional Branch because the MEO Systems Functional Branch was a fixed cost
           and the MEO technical performance plan described additional duties for the
           43 positions assigned the systems work. The additional duties included
           maintaining and updating the Continuity of Operations Plan, preparing required
           documentation for other Federal agencies, providing field and production support,
           and overseeing the security of the retired and annuitant system. Based on this,
           CNA assumed that the 43 positions would remain with the MEO even though the
           systems work requirement was reduced, and only applied the 76.2-percent
           reduction to the systems work performed by the Technical Services Organization.
           We believe the MEO offer should be reduced by 76.2 percent of the systems work
           performed by both the Technical Services Organization and MEO Systems
           Functional Branch, which would reduce the MEO offer to an estimated
           $198 million for the remaining 7 performance years, a reduction of 16.65 percent
           of the original MEO offer.5

                   IG DoD Opinion on Adjustments for Systems Work. Both the
           contractor proposal and the MEO offer incorporated the 120,000 hours of systems
           work identified in the solicitation; therefore, we believe the 76.2-percent
           reduction in systems work should be applied to the full amount of systems work.
           CNA stated that they chose to reduce only the Technical Services Organization
           because it did not change the MEO’s original management approach for the
           functions. However, the amount of systems work to be performed in the
           remaining performance years is unknown, consequently to compare the contractor
           proposal and the MEO offer fairly, we believe the reduction in systems work
           should be applied to all portions of the in-house cost estimate. CNA addressed
           this possibility in its report, but chose not to use it as the basis for estimating the
           cost savings because they believed it violated the integrity of the MEO’s original
           management approach. We believe that CNA should have reported the potential

5
    The MEO offer would be understated by the cost of the additional duties performed by the Systems
    Functional Branch, which we were unable to estimate.



                                                     7
costs savings due to the reduction of systems work as a range. As shown in
Table 2, both adjustments favor the contractor and the cost difference between the
adjusted contractor proposal and the adjusted MEO offers ranged from
$7.49 million to $32.42 million.

        Table 2. Comparison of Contractor Proposal with MEO Offer Adjusted
                        for the Reduction in Systems Work
               Adjusted       CNA                      IG DoD
               Contractor    Adjusted                  Adjusted
    Contract    Proposal    MEO Offer Difference      MEO Offer Difference
     Year      (millions)   (millions) (millions)     (millions) (millions)
       4        $27.69        $30.74       $(3.05)     $27.56       $0.13
       5         27.61         31.09        (3.48)      27.79       (0.18)
       6         27.52         31.43        (3.91)      28.00       (0.48)
       7         27.10         31.81        (4.71)      28.26       (1.16)
       8         26.67         32.20        (5.53)      28.52       (1.85)
       9         26.85         32.61        (5.76)      28.79       (1.94)
      10         27.05         33.03        (5.98)      29.06       (2.01)
    Total       $190.49      $222.91       $(32.42)    $197.98     $(7.49)


        Comparison of Additional Cost Considerations for Option 1 and
Option 2. CNA stated that DFAS would incur additional costs if the military
retired and annuitant pay functions returned to in-house performance without
competition and added those additional costs to the savings identified in Option 1,
retain the existing contract. We agree that DFAS would incur additional costs,
however, CNA did not account for all costs that would be affected by a change in
service provider. CNA determined that the additional costs DFAS would incur
were transition costs, new equipment costs, and loss of federal income taxes.
However, CNA did not include a cost reduction for contract administration work
that would not be performed if the functions were returned to in-house
performance.

                Cost Adjustments. CNA adjusted the cost of returning to
in-house performance by adding transition costs, such as human resources
support, training, overhead, and personnel costs to the MEO offer. In addition,
CNA added the estimated cost of equipment to replace an older DFAS system
with a newer integrated voice response system already in place by the contractor.
CNA also added to the MEO cost an estimated loss of $1 million federal income
taxes that the U.S. Treasury would no longer receive if the functions returned to
in-house performance. CNA calculated the total additional costs to be
$9.34 million. Using OMB Circular No. A-76 guidance, we calculated the
estimated loss of federal income tax to be $1.52 million, for a total of
$9.86 million in additional costs. Based on a discussion with a DFAS competitive
sourcing official, we believe CNA should have also included the costs of
information technology and facilities as transition costs for a total of
$10.97 million in cost adjustments.




                                       8
                Contract Administration Costs. CNA did not include the cost of
contract administration when identifying the savings associated with a change in
service provider. OMB Circular No. A-76 defines the cost of contract
administration as the costs incurred in administering a contract, which include
reviewing compliance with the terms of the contract, processing payments,
negotiating change orders, and monitoring the closeout of contract operations.
CNA stated that they did not include the costs of contract administration because
the Government would incur administration costs regardless of who performs the
function (contractor or MEO). However, OMB Circular No. A-76 specifically
states that contract administration does not include costs that would be common
to both contract and Government performance, such as quality assurance
surveillance, inspection, or other administrative requirements to ensure acceptable
performance. Therefore, contract administration costs are specific to contractor
performance and would not be incurred if the MEO were performing the military
retired and annuitant pay functions.

               OMB Circular No. A-76 provides specific guidance on
determining the cost of contract administration, stating that these costs
“represents the estimated additional cost to administer a contract over and above
the cost to administer the same work performed by in-house employees.” Using
OMB Circular No. A-76 guidance, we determined the costs of contract
administration for the remaining 7 performance years to be $7.26 million.

               Subsequently CNA stated that they did not include the cost of
contract administration because DFAS estimated that the time spent on contract
administration was less than one staff year; therefore CNA considered these costs
to be minimal and have a negligible impact on savings rates. The Director of the
DFAS Contract Services Directorate stated that approximately two staff years
were allocated for contract administration of the military retired and annuitant pay
functions contract. The annual cost of the two positions was approximately
$230,000, or $1.84 million over the remaining 7 years. Taking into account the
reduction of systems work and both actual costs of contract administration and the
costs of contract administration per the OMB Circular No. A-76, the cost savings
associated with retaining the existing contract ranged from $11.2 million to
$41.5 million, as shown in Table 3.

           Table 3. Comparison of CNA and IG DoD Cost Savings Adjusted for
                Reduction of Systems Work and Contract Administration
                                                 Adjusted      IG DoD
                                               CNA Estimate    Estimate
                                                (millions)    (millions)
              Adjusted MEO Offer                 $222.91      $197.98
              Adjusted Contractor Proposal        190.49       190.49
              Subtotal                            $32.42        $7.49
              Additional Costs
               Plus: Cost Adjustments             10.97         10.97
               Less: Contract Administration      (1.84)        (7.26)
              Cost Savings                        $41.55        $11.20




                                        9
Performance Data
    In Congressman Kucinich’s request, he also asked that the IG DoD review the
    CNA evaluation of contractor performance data. Specifically, he asked that we
    explain the difference between the random sample performance data and the
    summary performance data as well as evaluate the appropriateness of CNA’s
    presentation of the data.

    CNA evaluated contractor performance based upon three types of performance
    data:

       •   contractor performance with Government performance during the same
           time period in the prior year,

       •   random sample and summary performance data with contract
           requirements, and

       •   annual customer satisfaction surveys.

    CNA concluded that the contractor was performing satisfactorily, however given
    that the performance of the contractor could not be evaluated on all contractual
    performance requirements, we disagree that overall contractor performance could
    be evaluated. Because not all contract performance data were available and
    customer satisfaction data that DFAS provided were not based on documented
    statistically representative sample designs and should not be used to compare
    performance, we were unable to come to a conclusion on the performance of the
    contractor.

    Contract Requirements. The contract specified that the contractor be evaluated
    on 10 performance requirements. However, DFAS could only evaluate the
    contractor on 4 of the 10 performance requirements. The four contractual
    performance requirements were provide accurate pay and entitlement information
    to retirees and annuitants, establish new accounts, maintain existing accounts and
    process changes, and provide customer service. Of those four, the contractor was
    consistently meeting one of the performance requirements. A fifth performance
    requirement, which DFAS considered critical, but could not effectively evaluate
    according to the contractual performance requirements, was the requirement to
    pay retirees and annuitants in a timely manner. DFAS officials stated the
    contractor had consistently provided the information DFAS needed to pay retirees
    and annuitants in a timely manner. DFAS revised the contract performance
    requirement summary on April 9, 2004, and according to DFAS, it better reflects
    customer requirements and provides a more comprehensive and complete review
    of the work for which the contractor is responsible. However, until DFAS can
    fully evaluate the performance of the contractor on the new contractual
    performance requirements, we disagree that an overall conclusion on contractor
    performance data can be made.




                                        10
                  Comparison of Pre- and Post-Competition Performance. Using
          summary performance data, CNA compared performance of the contractor to the
          Government during the same time period in the prior year as a measure of
          contractor performance. CNA compared pre- and post-competition performance
          in three areas: establish new accounts, maintain existing accounts and process
          changes, and provide customer service and concluded that the contractor was
          performing at a level comparable to, or slightly better than, Government
          performance.

                  Difference Between Random Sample and Summary Performance
          Data. CNA evaluated contractor performance from February 2002 through
          April 2003 by comparing random sample data with summary performance data
          for the three contractual performance requirements and concluded that the
          contractor was performing satisfactorily. However, a comparison using data
          obtained by differing methodologies is not a valid comparison. In this case, the
          random sample data were drawn from the DFAS Continuing Government Activity
          (CGA)6 that performs monthly evaluations of contractor performance. By
          comparison, the summary performance data used were raw monthly transaction
          data. Details maintained in each set of data were not consistent. For example, for
          the contractual performance requirements, “establish new accounts” and
          “maintain existing accounts and process changes,” the random sample data
          evaluated timeliness and accuracy, while the summary performance data only
          evaluated timeliness. For the third contractual performance requirement,
          “provide customer service,” the random sample data measured the percentage of
          calls that were answered within 20 seconds, whereas the summary performance
          data measured the percentage of calls answered. We believe that both accuracy
          and timeliness are important elements of contractor performance. Table 4 shows
          the difference in each of the three contractual performance requirements using
          random sample and summary performance data.

                              Table 4. Number of Months Random Sample and
                                 Summary Performance Data Indicated the
                                  Contractor Met Performance Standards
                                                              Random                Summary
                                                            Sample Data        Performance Data
                                                         (out of 15 months)    (out of 15 months)
              Establish New Accounts
               FY 2002 Requirement: 98.2%                      6 months            5 months
               FY 2003 Requirement: 98.3%                      1 month             4 months

              Maintain Existing Accounts and Process Changes
               FY 2002 Requirement: 99.2%                      0 months            8 months
               FY 2003 Requirement: 99.3%                      0 months            4 months

              Provide Customer Service
               Requirement: 80%                                0 months            12 months



6
    The DFAS CGA was established to oversee the quality of work provided by the contractor. The DFAS
    CGA coordinates with the contracting officer and is the Government point of authority for any
    deviations, corrective actions, complaints, or other issues relating to the contractor.



                                                   11
        Presentation of Data. Congressman Kucinich also questioned CNA’s
presentation of contractor performance data. CNA did not use equivalent scales
when presenting similar data on graphs. For the contractual performance
requirement “establish new accounts,” CNA compared contractor summary
performance data with DFAS summary performance data during the same time
period of different years. To show this comparison in their report, CNA used a
line graph and a scale from 93 to 100. Using this scale, small percentage point
differences between contractor performance and DFAS performance were very
noticeable. For example, summary performance data showed the contractor
established 99.1 percent of new accounts within 30 days in September 2002, and
DFAS established 96.9 percent of new accounts within 30 days in
September 2001. This 2.2-percentage point difference appears to be large, as
shown in Figure 1.


                100
                             99.1               99.7            99.1           99.1
                                    98.9               98.9
                 99                                                     98.4                 98.6
                      98.2                                                                           98.4
                                              98.9                                    97.9
                 98                    98.2            98.7   98.5                                          97.6
                                                                                             98.4
                                                                       97.7           97.7
   Percentage




                 97
                                96.6                                                                97.2
                                                                               96.9
                 96
                         95.4                                                                               95.9
                 95
                                                                         D FA S 01-02
                 94                                                      Contractor 02-03

                 93
                      Feb    M ar   A pr   M ay      Jun       Jul   A ug      Sep    O ct   N ov   D ec    Jan
                                                              M onth



Figure 1. Performance Requirement, Establish New Accounts, as a Line
Graph with a Scale of 93 to 100, as Presented in the CNA Report

       However, when CNA showed contractor performance by comparing
random sample data and summary performance data with the contract
requirements, CNA used a bar graph and a scale of 0 to 100. On this scale, the
small percentage point differences between the data were not very noticeable.
For example, in November 2002, the contractor was required to establish
98.3 percent of all new accounts within 30 days. The random sample data shows
the contractor only established 94.2 percent of the new accounts whereas the
summary performance data shows the contractor established 98.4 percent of the
new accounts. The 4.2-percentage point difference appears negligible, as shown
in Figure 2.




                                                       12
                 100
                  90
                  80
Percentage        70
                  60
                  50
                  40
                  30
                  20
                  10
                   0
                       Feb- Mar- Apr- May- Jun-             Jul- Aug- Sep- Oct- Nov- Dec-               Jan- Feb- Mar- Apr-
                        02   02   02   02   02               02   02   02   02   02   02                 03   03   03   03
                                                                    Month
                                             Overall Performance Summary          Random Sample                 Goal


Figure 2. Performance Requirement, Establish New Accounts, as a Bar
Graph with a Scale of 0 to 100, as Presented in the CNA Report

       A more comparable presentation of showing contractor performance when
comparing random sample data and summary performance data with the contract
requirements would have been for CNA to use a line graph and a scale of 93 to
100, equivalent to how CNA compared DFAS performance to contractor
performance, as shown in Figure 3.

                 100                          99.7          99.4                                                                99.4
                                                     98.9                  99.1                                          99.3
                  99                                                                                             98.9
                                     98.2                   99.1   98.2           98.2    98.4
                  98                                                                                     97.6                   98.8
                                              98.5   98.2
                       97.2           98.2                                 98.2                  97.2                    98.2
                                                                                  97.9
    Percentage




                              96.6                                 97.7
                  97
                                                                                                                  96.9
                  96

                  95                                                                             95.7
                       95.4
                              94.8                                                                       94.8
                  94                                                                     94.2
                  93
                       Feb- Mar- Apr- May- Jun-             Jul- Aug- Sep- Oct- Nov- Dec- Jan- Feb- Mar- Apr-
                        02   02   02   02   02               02   02   02   02   02   02   03   03   03   03
                                                                          Month

                                                 Overall Performance Summary               Random Sample

                                       Contract Requirement: FY 2002 98.2 percent, FY 2003 98.3 percent


Figure 3. Performance Requirement, Establish New Accounts, as a Line
Graph with a Scale of 93 to 100




                                                                   13
       Customer Service Satisfaction Surveys. CNA cited in its report the
annual customer satisfaction survey, conducted by the Office of Personnel
Management (OPM), as another measure of satisfactory contractor performance.
CNA reviewed the customer satisfaction survey results and concluded that
customers were “as satisfied or more satisfied” with contractor performance as
they were with prior Government performance. However, the data that DFAS
provided were not based on documented statistically representative sample
designs, and therefore, should not be used to compare performance.
        Agreement with the Office of Personnel Management. In 2001, DFAS
wanted to obtain an independent evaluation of the satisfaction of all its customers.
DFAS entered into an agreement with OPM to conduct surveys for 13 of its
business functions, including the military retired and annuitant pay functions to
gauge and compare customer satisfaction. The agreement stated that DFAS
would provide OPM customer name and address information for each of the pay
functions. OPM independently surveyed the customers DFAS selected, analyzed
the survey results, and projected the results to the entire universe of the military
retired and annuitant pay customers. OPM provided the survey results to DFAS,
which DFAS provided to CNA for use in its analysis.
         Military Retiree and Annuitant Customer Satisfaction Survey Sample
Selection. DFAS did not ensure that the customers selected for the 2001 and
2002 military retiree and annuitant customer satisfaction surveys were based on
documented statistically representative sample designs. DFAS CGA officials
were unable to explain how the customers were selected for the 2001 military
retiree and annuitant surveys. For the 2002 retiree customer sample, DFAS CGA
officials stated that the contractor manually selected the customers. For the 2002
annuitant customer sample, DFAS CGA officials stated the contractor used
software to evaluate every 25th record and selected those records that met certain
criteria. However, DFAS CGA officials were unable to provide sufficient
information to determine whether the sample design was sound and appropriately
implemented. OPM was unaware that the methodology of the DFAS sample
selection was not based on documented statistically representative sample
designs, and therefore, used the results and prepared its reports as if the surveys
were statistically representative of the entire customer base.
        A statistically representative sample should be designed and selected in
order for OPM to project the survey results from the sample to the entire customer
base of military retired and annuitant pay customers. DFAS did not have standard
operating procedures to ensure the statistical selection of a random sample.
Consequently, the results of the samples should not be used to make inferences
about the entire customer base or to make meaningful comparisons of the survey
results from year to year.
Overall Evaluation of Contractor Performance. CNA concluded that
contractor performance was satisfactory based on its review of contractor
performance with Government performance, random sample and summary
performance data with contract requirements, and annual customer satisfaction
surveys. In the three areas that CNA compared contractor performance with
Government performance, we agree with the conclusion that the contractor was
performing at a level comparable to Government performance, and therefore,


                                     14
    would be considered satisfactory. However, we disagree that overall contractor
    performance could be evaluated because the contractor could not be evaluated on
    all contractual performance requirements and because the annual customer
    satisfaction surveys were not based on documented statistically representative
    sample designs and should not be used to compare performance. Therefore, we
    do not believe it was clear whether contract performance was satisfactory.


Management Action
    During the course of our audit, DFAS took management actions to address the
    methodology for the selection of customer satisfaction survey samples.
    Specifically, DFAS was developing procedures to ensure that the samples
    selected for future military retiree and annuitant customer satisfaction surveys are
    based on documented statistically representative sample designs.

Conclusion
    DFAS Decision. In August 2002, DFAS analyzed possible sourcing options, and
    decided to retain the contract because it was a low-risk option, provided
    continued service delivery, and provided time to evaluate available options and
    make a fully informed decision for the future of the military retired and annuitant
    pay functions. In September 2003, CNA provided their study to DFAS. The
    Director, DFAS, stated in an October 20, 2003, letter to Congressman Kucinich,
               The CNA recently completed their analysis and concluded that
               continuing the contract with [the contractor] is the best overall business
               decision. DFAS will be retaining the contract and will evaluate it each
               year to ensure it continues to provide best value and acceptable
               performance.

    We disagree with the methodology CNA used to estimate the $42 million cost
    savings of Option 1, retain the existing contract, compared with Option 2, return
    to in-house performance. We believe the cost savings of Option 1 were an
    estimated range of $11.2 million to $41.5 million. Given that the performance of
    the contractor could not be evaluated on all contractual performance
    requirements, we also disagree that the overall performance could be evaluated,
    and were unable to come to a conclusion on contractor performance. Because the
    Director, DFAS, stated he would reconsider the decision to retain the existing
    contract at the end of each option year, he should consider contractor performance
    using the revised performance requirement summary and relevant economic cost
    data, to determine whether retaining the existing contract continues to provide the
    best value.




                                             15
Management Comments on the Finding and Audit Response
    Management Comments. The Acting Director, DFAS cited that the primary
    concern of DFAS was to ensure uninterrupted service to the 2.4 million retired
    members and annuitants, and that the use of a contractor has been and continues
    to be the best economic solution. She further stated that CNA considered “out-of-
    pocket” costs, such as the planned annual federal pay raises over the remaining
    life of the contract, that were not fully accounted for in the prior A-76 cost
    comparison. Such costs were not reviewed by the IG DoD. Additionally, she
    stated that the contract has cost $13.1 million less than what had been anticipated
    in the public/private cost comparison over the first two years.
    Audit Response. We did not review “out-of-pocket” costs because our scope
    was limited to the specific matters outlined in Congressman Kucinich’s request.
    In addition, OMB Circular No. A-76 requires that annual federal pay raises not be
    included for personnel positions subject to economic price adjustments beyond
    the first performance period. This is done to provide a level playing field
    between public and private offers. When CNA considered “out-of-pocket” costs,
    CNA concluded that “the MEO is likely to cost about $22 million more than [the
    contractor] during the remaining 8 years,” which falls within our estimated cost
    savings of $11.5 million to $41.5 million.
    We do not disagree that the contract has cost less than what was anticipated in the
    public/private cost comparison over the first two years; however, the reason was
    because the amount of systems work did not materialize as estimated in the
    solicitation. We subsequently confirmed with DFAS that the contract has cost
    $11.3 million, instead of $13.1 million, less than what was anticipated.

Recommendations and Management Comments
    We recommend that the Director, Defense Finance and Accounting Service:

       1. Use the most current contractor performance data and relevant
          economic cost data to make the decision to retain the existing contract
          at the end of each option year.

       Management Comments. The Acting Director, Defense Finance and
       Accounting Service concurred and stated that actions would be completed by
       November 1, 2004.
       2. Issue standard operating procedures to ensure that the samples
          selected for future military retiree and annuitant customer
          satisfaction surveys are based on documented statistically
          representative sample designs.

       Management Comments. The Acting Director, Defense Finance and
       Accounting Service concurred and stated that the action would be completed
       by July 1, 2004.



                                        16
Appendix A. Scope and Methodology
          We reviewed the CNA analysis of two of the sourcing options available to DFAS
          for the military retired and annuitant pay functions. We met with DFAS and
          CNA officials to discuss the analysis. We reviewed OMB Circular No. A-76 to
          identify guidance on public/private competitions. We reviewed portions of the in-
          house cost estimate, the MEO technical performance plan, and the solicitation to
          identify the requirement for systems work. We reviewed the contractor proposal
          and a certified public accountant report to identify costs of systems work incurred
          in the first performance period. We analyzed cost comparison documents and
          CNA data to determine the estimated costs of Option 1, to retain the existing
          contract and Option 2, to return to in-house performance. We reviewed DFAS
          computations of estimated recompetition costs to identify transition costs. We
          followed OMB Circular No. A-76 to calculate costs defined in the guidance, such
          as federal income tax loss, contract administration costs, and the conversion
          differential. We used DFAS and CNA computations for costs not included in the
          OMB Circular No. A-76, such as transition costs, recompetition costs, and capital
          costs. We reviewed contractor performance documents that included summary
          performance data for DFAS from February 2001 through January 2002 and for
          the contractor from February 2002 through January 2003. We reviewed random
          sample performance data and deficiency reports from February 2002 through
          January 2003 to validate data reported by CNA, to differentiate between random
          sample and summary performance data, and to create uniform graphic
          illustrations of the data. We reviewed OPM customer satisfaction survey
          documents for 2001 and 2002. We met with DFAS CGA officials to discuss the
          sample selection methodology for the customer satisfaction surveys and to discuss
          the contract negotiations for the revised performance requirements summary.
          We performed this audit from December 2003 through April 2004 according to
          generally accepted government auditing standards.
          Limitations to Scope. We did not review the management control program
          because the audit scope was limited to the specific matters outlined in
          Congressman Kucinich’s request.
          Use of Computer-Processed Data. We relied on computer-processed cost
          comparison data calculated by the DoD-approved COMPARE software program.
          This Air Force-developed program was released in November 1994 and was the
          software generally accepted for performing OMB Circular A-76 cost comparison
          studies by all the Military Departments and Federal agencies. On February 29,
          2000, DoD interim guidance mandated use of COMPARE* for all DoD A-76 cost
          comparisons. Audits of the program by the Army Audit Agency concluded
          program cost comparison computations adequately documented costs in
          accordance with the OMB Circular A-76 Revised Supplemental Handbook


*
    Subsequently, a contractor hired by the Air Force Manpower Innovation Agency, Randolph Air Force
    Base, Texas, developed win.COMPARE2, a Windows-based personal computer application that replaced
    COMPARE in 2001.



                                                  17
    guidance. Nothing came to our attention in this review that caused us to doubt the
    reliability of the computer-processed data.
    Use of Technical Assistance. Personnel in the Quantitative Methods Division,
    Office of the Deputy Inspector General for Auditing of the Department of
    Defense assisted in the analysis of the OPM customer satisfaction surveys.
    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the Defense Infrastructure and Defense Contract Management high-risk areas.


Prior Coverage
    During the last 5 years, the General Accounting Office and the Inspector General
    of the Department of Defense have issued numerous reports discussing the OMB
    Circular A-76 process and public/private competitions, and the Inspector General
    of the Department of Defense has issued one report specifically relating to the
    DFAS military retired and annuitant pay functions. Unrestricted General
    Accounting Office reports can be accessed at http://www.gao.gov. Unrestricted
    Inspector General of the Department of Defense reports can be accessed at
    http://www.dodig.osd.mil/audit/reports.


IG DoD
    IG DoD Report No. D-2003-056, “Public/Private Competition for the Defense
    Finance and Accounting Service Military Retired and Annuitant Pay Functions,”
    March 21, 2003




                                        18
Appendix B. Congressional Request




                     19
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Installations and Environment)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organization
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget




                                          20
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform

Honorable Dennis J. Kucinich, U.S. House of Representatives




                                         21
Defense Finance and Accounting Service
Comments
                                         Final Report
                                          Reference




                                         Revised




                                         Revised




                      23
24
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Contract Management prepared this report. Personnel of the Office of
the Inspector General of the Department of Defense who contributed to the report
are listed below.
David K. Steensma
Kimberley A. Caprio
Anella J. Oliva
Rebecca L. Yovich
John E. Leonard
Jamie E. Olivo
H. David Barton
Kandasamy Selvavel
Theresa L. Tameris
